No.

IN THE SUPREME COURT OF THE UNITED STATES
444444444444444444444444U
GILBERT CARRASCO,
Petitioner,
-vUNITED STATES OF AMERICA,
Respondent.
4444444444444444444444444U
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
4444444444444444444444444U
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to 18 U.S.C. ยง3006A(d)(6) and Rule 39 of this Court, Petitioner Gilbert Carrasco
moves for leave to file his Petition for Writ of Certiorari to the United States Court of Appeals for
the Ninth Circuit without pre-payment of fees or costs, and to proceed in forma pauperis. Petitioner
was represented by appointed counsel on appeal in the Ninth Circuit. See 18 U.S.C. ยง3006A.

Respectfully submitted,
/s/ Todd W. Burns
Dated: July 21, 2020
TODD W. BURNS
Counsel of Record
Burns & Cohan, Attorneys at Law
1350 Columbia Street, Suite 600
San Diego, California 92101
619-236-0244
Counsel for Petitioner

